                              SOCIAL SECURITY
                                      August 14, 2008

The Honorable Sherrod Brown
United States Senate
Washington, D.C. 20610

Dear Senator Brown:

In a February 12, 2008 letter, you asked that we investigate the claims made in a
January 2008 CBS Evening News report that

1. the Social Security Administration (SSA) has instituted quotas for the number of
   individuals who may have their claims for Social Security Disability Insurance
   approved,
2. SSA maintains a culture to deny disability claims, and
3. employees are told by their supervisors to deny a certain number of disability claim
   applicants.

To assess the organizational culture at the disability determination services (DDS) for
approving and denying disability claims, we visited 31 DDSs, including the Ohio DDS, and
conducted 255 interviews with current employees. We also completed 132 telephone
interviews with former employees who had separated from all of the 52 DDSs between
February 2007 and February 2008.

My office is committed to combating fraud, waste and abuse in SSA’s operations and
programs. Thank you for bringing your concerns to my attention. This report highlights
various facts pertaining to the issues raised in your letter. To ensure SSA is aware of this
information, we are providing the Agency a copy of the report.

If you have any questions concerning this matter, please call me or have your staff contact
Jonathan Lasher, Deputy Counsel to the Inspector General for External Relations, at (410)
965-7178.

                                                        Sincerely,



                                                        Patrick P. O’Carroll, Jr.
                                                        Inspector General

Enclosure

cc:
Michael J. Astrue

             SOCIAL SECURITY ADMINISTRATION          BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

Disability Determination Services
       Disability Decisions

          A-15-08-28114




           August 2008
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                                               Background
OBJECTIVE
In a February 12, 2008 letter to the Inspector General, Senator Sherrod Brown of Ohio
requested that the Office of the Inspector General (OIG) investigate the claims made in
a January 2008 CBS Evening News report that (1) the Social Security Administration
(SSA) has instituted quotas for the number of individuals who may have their claims for
Social Security Disability Insurance approved, (2) SSA maintains a culture to deny 1
disability claims, and (3) employees are told by their supervisors to deny a certain
number of disability claim applicants. In response to Senator Brown’s request, we
assessed the organizational culture 2 at the disability determination services (DDS) for
approving and denying disability claims.

BACKGROUND
Overview of the DDS Program

Disability determinations under SSA’s Disability Insurance and Supplemental Security
Income programs are performed by a DDS in each State or other responsible
jurisdiction, according to Federal regulations. 3 In carrying out its obligation, each DDS
is responsible for gathering adequate evidence to make a disability determination on a
claimant’s behalf.

The Code of Federal Regulations (C.F.R.) defines disability for adults as “. . . the
inability to do any substantial gainful activity 4 by reason of any medically determinable
physical or mental impairment 5 which can be expected to result in death or which has


1
  We defined a culture to deny as the behavior, beliefs, act or practice of working disability cases with the
intent to deny the case.
2
 The BNET (Business Network) Business Dictionary defines organizational culture as the shared pattern
of beliefs, assumptions, and expectations held by organizational members and their characteristic way of
perceiving the organization’s artifacts and environment.
3
    20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
4
  According to 20 C.F.R. §§ 404.1571, 404.1572, 416.971 and 416.972, “substantial gainful activity” is the
performance of significant physical or mental activities in work for pay or profit or in work of a type
generally performed for pay or profit. Work may be substantial even if it is seasonal or part-time or even if
the individual does less, is paid less, or has less responsibility than in previous work. Work activity is
gainful if it is the kind of work usually done for pay, whether in cash or in kind, or for profit, whether or not
a profit is realized.
5
 According to 20 C.F.R. §§ 404.1508 and 416.908, the phrase “physical or mental impairment” is defined
as an impairment that results from anatomical, physiological, or psychological abnormality demonstrable
by medically acceptable clinical and laboratory diagnostic techniques.


Disability Determination Services Disability Decision (A-15-08-28114)                                          1
lasted or can be expected to last for a continuous period of not less than 12 months. 6”
In adhering to regulations during the initial disability claims process, the DDS secures
evidence to establish medical and vocational facts about a claimant so “sequential
evaluation” may be applied. 7 The medical evidence must contain enough detail to
permit an independent determination about the following:

•     whether the individual is disabled or blind,
•     the nature and limiting effects of the individual’s physical and/or mental
      impairment(s),
•     the probable duration of the impairment, and
•     in cases requiring consideration of vocational factors, the claimant’s residual
      functional capacity to do work-related physical and/or mental activities.

The disability decision made by the DDS is based on the medical and non-medical 8
evidence in the claimant’s file. DDS employees do not see claimants face-to-face;
therefore, visual observations are not part of the decision-making process. The DDS
examiner must rely on the receipt of relevant medical evidence that is provided by the
claimant and/or medical sources to support the disability determination.

SSA Monitoring of the DDS Program

To ensure uniform administration of the disability program and conformance with the
statutory requirements set forth in the Social Security Act (Act), SSA conducts two types
of Federal quality reviews of disability claims: the quality assurance review (QAR) and
the pre-effectuation review (PER). Both are performed by the Office of Quality
Performance’s Disability Quality Branches before the effectuation of the DDS
determination.




6
    20 C.F.R. §§ 404.1505 and 416.905.
7
  Sequential evaluation is a five-step process used to determine disability in initial claims and
reconsiderations. The five steps are (1) evaluating an individual’s work activity to assess if they are
engaging in substantial gainful activity, (2) considering the medical severity of the impairment to
determine whether the duration requirement is met, (3) considering the medical severity of the impairment
to determine whether it meets an SSA medical listing, (4) evaluating the residual functional capacity and
past relevant work experience for potential employment options, and (5) evaluating the residual functional
capacity and context of the individual’s age, education and work experience to see if adjustments can be
made to other work. SSA POMS – DI 22001.035 – The Five Steps in Sequential Evaluation – Chart and
20 C.F.R. §§ 404.1520 and 416.920.
8
  Non-medical evidence is information used to help show the severity of an individual’s impairment and
how it affects his or her ability to work or function. This type of evidence is obtained from educational
personnel, public and private social welfare agency personnel, spouses, parents, other caregivers,
siblings, other relatives, friends, neighbors and clergy. 20 C.F.R. §§ 404.1513(d) and 416.913(d).



Disability Determination Services Disability Decision (A-15-08-28114)                                       2
As authorized by section 221(a)(2) of the Act, 9 SSA conducts the QAR 10 to assess DDS
performance. The QAR is designed to provide a statistically valid measure of individual
DDS performance in terms of decisional accuracy and documentation requirements.
This review includes an equal number of both DDS allowances and denials. As shown
in Chart 1, SSA reviewed 38,190 cases (about 1.5 percent of all initial disability claims)
in Fiscal Year (FY) 2006 and 33,677 cases (about 1.4 percent of all initial disability
claims) in FY 2007. Of the cases reviewed, 2,269 were returned to DDSs in FY 2006
and 1,888 were returned in FY 2007 (approximately 6 percent each year) for either
decision reversals or additional documentation.

As required by the Act, SSA must report to the Committee on Ways and Means of the
House of Representatives and to the Committee on Finance of the Senate on the PER
conducted during the previous fiscal year. The Act requires SSA to review at least
50 percent of all State Social Security Disability Insurance initial and reconsideration
allowances and a sufficient number of continuing disability review continuances to
ensure a high level of accuracy in such determinations. Additionally, the Act requires
that SSA select and review those determinations deemed most likely to be incorrect. 11
In administering the PER, SSA reviews 50 percent of favorable Title II and concurrent
Title II/XVI initial and reconsideration determinations made by State agencies. 12 As
reported in the FY 2006 PER Report to Congress, SSA reviewed
295,336 (51.7 percent) of all disability claim allowances. Based on the total allowances
reviewed, 265,185 (46.4 percent) were initial allowances, while the remaining
35,668 (5.3 percent) were reconsiderations. Of the initial allowances reviewed,
10,469 cases (approximately 4 percent) were returned to the DDS for either a decision
reversal or additional documentation.




9
     The Social Security Act § 221(a)(2), 42 U.S.C. § 421(a)(2).

10
     20 C.F.R. §§ 404.1640 through 404.1643 and 416.1040 through 416.1043.
11
      The Social Security Act § 221(c), 42 U.S.C. § 421(c).

12
     SSA Program Operations Manual System (POMS) (DI 30005.005) – Types of Federal Quality Review.


Disability Determination Services Disability Decision (A-15-08-28114)                                3
            Chart 1 - Federal Quality Review Summary by the Number of Initial
                         Claim Allowances and Denials Reviewed
                                         PER*                  QAR
                                 FY 2006     FY 2007   FY 2006     FY 2007
           Cases Reviewed        265,185       N/A      38,190      33,677
                   Allowances    265,185       N/A      17,492      16,835
                                      13
                       Denials      0          N/A      20,698      16,842
           Cases Returned         10,469       N/A       2,269       1,888
                     *The FY 2007 PER figures have not been made available at this time.
           Source: Information retrieved from (a) FY 2006 and FY 2007 OQP, Federal QAR,
           Regional Accuracy Rates by Decision/Documentation Return Reports (b) FY 2006 Annual
           Report of Social Security Pre-effectuation Reviews of Favorable Disability Insurance
           Determinations.


To help measure the success of the Disability Insurance program, SSA included specific
disability performance indicators in the FY 2007 Performance and Accountability Report
(PAR):

       •    percent of initial disability claims receipts processed up to the budgeted level –
            (new measure for FY 2007),
       •    number of initial disability claims pending in the DDS (at/below the FY 2007
            goal), 14
       •    the average processing time for initial disability claims,
       •    DDS net accuracy rate (allowances and denials combined), and
       •    DDS case production per work year. 15

Based on the FY 2007 performance indicators, four of the five performance goals were
met. The one performance goal not met was the DDS case production per work year
goal. Both this goal and the number of initial disability claims pending in the DDS have
been eliminated from the FY 2008 performance goals.




13
  Per SSA POMS (DI 30005.005), the PER is required to review 50 percent of favorable Title II and
concurrent Title II/ XVI initial and reconsideration determinations made by State agencies. Disability
claims that are denied are not reviewed under the PER review.

14
  Per March 2008 policy instruction (DDSAL 759) to DDS Administrators, this goal has been eliminated
as an external performance measure for FY 2008.
15
     Id.


Disability Determination Services Disability Decision (A-15-08-28114)                                    4
                                                               Results of Review
Based on our review, we found the weight of the evidence does not support the
allegations that (1) SSA has instituted quotas for the number of individuals who may
have their claims for Social Security Disability Insurance approved, (2) SSA maintains a
culture to deny disability claims, and (3)
employees are told by their supervisors to
                                                                  Chart 2 -
deny a certain number of disability claim
applicants.                                             Total Interviews Completed
                                                                 Job Title          Current          Former
To assess the organizational culture at the
DDSs for approving and denying disability         Examiners                            155             111
claims, we visited 31 DDSs and conducted
255 interviews with current employees (that       Medical Staff                         63               3
                           16
is, managers, examiners, and medical
staff 17). We also completed 132 18 telephone     Management                            37              18
interviews with employees who had
separated (that is, retired, left, transferred to Totals                               255             132
another component, or were terminated) from
all of the 52 DDSs between February 2007 and February 2008.

The interviews focused on questions that would determine whether written or verbal
guidance, instructions or policy were provided to the staff regarding the number,
percent, or type of disability claims to approve or deny. Additionally, we inquired about
the (a) role of the regional office reviews and how they influenced the staff, (b) use and
distribution of statistical information and its impact on employees, and (c) structure of
performance evaluations. Lastly, we asked two open-ended questions that allowed the
interviewees to express their thoughts about the DDS organizational culture: (1) Do you
have any thoughts you would like to share with us in respect to approvals/denials?
(2) Nationwide the DDSs have a net accuracy rate of 97 percent. However, 62 percent
of cases in appeal are overturned. What are your thoughts on this? What are some of
the explanations?

Below, we directly answer the three main questions asked by Senator Brown in his
letter to the Inspector General. In addition to the three questions asked by Senator

16
   For the purpose of this report, we define examiner as an individual employed at the DDS who
adjudicates disability claims. This definition is inclusive of the various job titles assigned by the different
DDSs (that is, adjudicator, claims specialist, claims examiner, claims counselor, etc.).
17
     We define medical staff as both medical consultants and psychological consultants.
18
  Based on our methodology, we originally planned to interview 138 separated employees. Due to
unresponsiveness or inability to contact, we were unable to interview some individuals originally selected
and chose additional individuals to contact. In total, we were successful in completing interviews with
132 separated employees.


Disability Determination Services Disability Decision (A-15-08-28114)                                             5
Brown, allegations presented in follow-up CBS Evening News articles are also
addressed. A detailed chart summarizing results by question and job function can be
found in Appendices C through F.

RESPONSES TO SENATOR BROWN’S LETTER

Has SSA instituted quotas 19 for the number of individuals who have their claims
approved?

Neither former nor current employees interviewed stated that SSA had quotas for the
number of individuals who could have their claims approved.

To determine whether SSA had instituted quotas for approving disability claims, we
asked current and former employees about the use of management statistics in the
DDS as well as the criteria for individual performance evaluations at the DDS. Based
on information received during the interviews, examiners’ performance evaluations are,
at a minimum, based on three criteria: quality, production, and case management. 20
Although we were provided with samples of statistics and performance evaluations that
included the allowance rate of individual examiners and medical staff, only one current
employee and two former employees stated that performance ratings were influenced
by the number of approvals or denials.




19
     The definition used for quotas is a minimum or maximum production assignment.
20
   Case management is defined by one DDS as the ability to organize caseloads and utilize automation
effectively to track case actions and ensure timely case development.


Disability Determination Services Disability Decision (A-15-08-28114)                                  6
Additionally, SSA does not have a
performance goal for measuring disability              Chart 3 - FYs 2003-2008 Average Initial
claim approvals or denials. SSA tracks                   Disability Claim Processing Time
these rates as well as many other                            Targets and Performance
attributes such as receipts, pending claims,             Fiscal Year         Targets           Actual
total decisions, and consultant exams.
These data are used by various SSA                           2008            107 days           TBD
components for management information
                                                                    Historical Performance
purposes only (that is, trend analysis, case
management, and/or programmatic and                          2007             88 days         83 days
policy evaluation). The approval and                         2006             93 days          88 days*
denial rates are not published in SSA’s
                                                             2005             93 days         93 days
annual PAR because these rates are not
used as a DDS performance indicator.                         2004             97 days          95 days*
                                                             2003            104 days         97 days
One measure for which we received                        *Rounded up if >=.5 and down if <=.4.
feedback is the average processing time of
                                                 Performance Indicator Definition: This is the
the initial disability claim. In FY 2007, the    fiscal year average processing time for Social
annual processing time goal was                  Security and Supplemental Security Income
88 days. 21 The actual processing time           disability claims combined. Processing time is
calculated for FY 2007 was 83 days. 22           measured from the application date (or protective
                                    23           filing date, if applicable) to either the date of the
The FY 2008 target is 107 days.
                                                 denial notice or the date the system completes
Although employees did not indicate there        processing an award. This includes “revised
were quotas to approve or deny claims,           time,” “transit time,” and “field office, Disability
some employees indicated more pressure           Determination Services, and Disability Quality
to process disability claims. Specifically,      Branch times,” as well as protective filing times for
                                                 awarded and medically denied claims. Source:
based on interview responses,
                                                 Information retrieved from (a) FY 2008 Annual
11 (4 percent) current and 15 (11 percent)       Performance Plan and Revised Final Plan for
former employees stated there was                FY 2007 (b) FY 2002 – FY 2008 SSA PARs
pressure and focus on processing claims
rather than pressure to approve or deny a claim. In support of the current and former
interviewee responses, Chart 3 illustrates that the target historical performance of SSA’s
average initial disability claim processing time decreased from 104 days in FY 2003 to
88 days in FY 2007.


21
     SSA FY 2007 PAR, Overview of Key Performance Indicators, Goals and Results, page 14.
22
     Id.
23
  In FY 2008, only claims that require a medical determination are included in the computation. In prior
years, the computation also included claims that were technically denied (for example, the claimant was
not insured for benefits). These technical denials are relatively quick claims and SSA felt that their
inclusion in the computation was unrealistically lowering the average processing time. The expectation is
that the FY 2008 change will provide SSA with a more accurate count of how long it takes a claimant to
receive a decision on a disability claim that requires a medical determination. Without these technical or
non-medical denials, the average processing time is approximately 20 days higher. SSA FY 2008 Annual
Performance Plan and Revised Final Plan for FY 2007 – Summary of Performance Measures, page 5
and 10-11.


Disability Determination Services Disability Decision (A-15-08-28114)                                     7
Overall, there was no indication by current or former employees interviewed that SSA
issued quotas for the number of individuals who have their claims approved.

Does SSA maintain a culture to deny?

Based on interviews with current and former DDS examiners, medical staff and
management, SSA does not maintain a culture to deny. Two key questions helped
provide insight into assessing this allegation.

(1) Are you encouraged to process a certain number, percentage, or type of denials per
week/month/year?

When asked whether examiners, medical staff, or management were encouraged to
deny disability claims, 255 (100 percent) current and 129 (98 percent) former
employees stated they were not encouraged to deny disability claims (see Chart 4).
Each of the three former employees who stated they were encouraged to deny disability
claims worked at a different DDS.


             Chart 4 - Are you encouraged to process a certain number,
                          percentage, or type of denials per
                                 week/month/year?*
                                                          Yes, 1%




                                                                 No, 99%

           *Responses from all current and former employee interviews.



(2) Do you have any thoughts you would like to share with us with respect to
approvals/denials?

Interviewees were asked this open-ended question about their thoughts on approvals
and denials in relation to the disability claim process. The volunteered responses
varied. Based on consolidated results, the following responses were provided.

•   Fifty-nine (23 percent) current and 20 (15 percent) former employees stated they
    processed disability claims according to the SSA guidelines and based on the
    medical evidence.
•   Twenty-one (8 percent) current employees and 10 (8 percent) former employees
    believed the policies and listings make it hard to process disability claims because
    they feel they are out of date.


Disability Determination Services Disability Decision (A-15-08-28114)                      8
•    Twenty-six (10 percent) current employees and two (2 percent) former employees
     felt there was a culture to allow 24 at the DDS.
•    Only one (less than 1 percent) current employee stated they felt there was a culture
     to deny at the DDS.

The remaining respondents either did not provide any comment or provided other
general comments.

Overall, based on the responses to the two questions, only one (less than 1 percent)
current employee and three (2 percent) former employees indicated there is a culture to
deny at the DDS.

Are employees encouraged by their superiors to deny or approve a certain
number of claims?

Three key questions helped us determine whether employees were encouraged to deny
or approve a certain number of disability claims at the DDS.

(1) Have you ever been provided written guidance that stated or implied (a) how many
disability claims, (b) what type of disability claims, or (c) what age of disability claimants
you (or a person in your position) should approve or deny?

When asked directly if examiners or medical staff were provided written guidance,
six (3 percent) current employees and two (2 percent) former employees answered yes.
Although eight total current and former employees answered yes to the question, two
stated the written guidance provided were SSA policy and the medical listings, three
stated the written guidance provided encouraged staff to approve more disability claims,
one stated individual performance was compared to national standards and one
provided no comment. Only one former employee answered yes and commented
“. . . we were instructed that if they [disability claimant] were under 55, do not spend
much time on them. Deny them.” This individual was unable to provide a copy of the
written guidance.

(2) Have you ever been told verbally, (a) how many disability claims, (b) what type of
disability claims, or (c) what age of disability claimants you (or a person in your position)
should approve or deny?

When asked directly if examiners or medical staff were provided verbal guidance, nine
(4 percent) current employees and six (5 percent) former employees answered yes.
Although 15 total current and former employees answered yes to the question,
2 individuals stated verbal guidance was provided on the general work process, 8 stated
they were provided verbal guidance to focus on increasing the DDS allowance rates,
1 stated individual performance was compared to national standards, and 1 provided no

24
  We define a culture to allow as the behavior, beliefs, act or practice of working cases with the intent to
approve the case.


Disability Determination Services Disability Decision (A-15-08-28114)                                          9
comment. The remaining three comments were provided by both current and former
employees and indicated a culture to deny disability claims. One current employee
commented,

        . . . I have been told how many cases that I need to make decisions on
        and I have been told that if someone is under 50 years old that maybe I
        shouldn’t put as much time into the case because they’re probably not
        going to get an allowance. Supervisors over the years have said this.
        One medical consultant jokingly suggested that I shouldn’t read the
        medical records because I take too long on cases. I have also been
        told I should hurry on cases that typically would be denied.

A former employee commented, “. . . there was a certain amount of denials and
approvals that had to be processed and having too many allowances was a problem. It
came from a mix of supervisors and seasoned adjudicators, but it was definitely not
written and was off the record.” Another former employee commented, “. . . yes,
periodically. . . I was told that I put too much emphasis on the evidence in the case.”

Overall, only one former employee (less than 1 percent) indicated they were provided
written guidance on the type of disability claim to deny. Two current employees and
one former employee (both less than 1 percent) indicated they were provided verbal
guidance on the type, number, and age of disability claimants to deny. Due to the low
percentages, these seem to be isolated cases and do not represent all DDSs.

(3) Does the Disability Quality Branch (DQB) process influence how you process
claims?

There was speculation that OQP’s PER and QAR influence how disability claims are
adjudicated. An initial claim returned as a result of a QAR, which measures the rate of
accuracy of favorable and unfavorable DDS disability determinations, has the potential
to impact the Federal performance accuracy rate of the DDS. 25

Chart 5 compares the number of cases selected and reviewed under QAR and PER.
Based on the larger number of cases reviewed under PER, if a claim is returned to the
DDS for a decision reversal, the claim is more likely to move from an allowance to a
denial. For the QAR administered in FY 2006, out of the 20,698 denied cases reviewed
(see Chart 1 on Page 3), the 946 denied cases (about 4.6 percent) that were returned to
the DDS resulted in a decisional reversal. At this time, SSA does not review denials as
part of the PER. If a review of denials were part of the PER, we believe additional
cases may be changed to allowances before the effectuation of the disability
determination.




25
  Only group I deficiencies in initial quality assurance sample cases are used in computing performance
accuracy rates. (SSA POMS DI 30005.001).


Disability Determination Services Disability Decision (A-15-08-28114)                                 10
           Chart 5 – Federal Quality Review Summary for Initial Disability
                        Determinations by Types of Returns
                                         PER*                     QAR
                                 FY 2006     FY 2007    FY 2006       FY 2007
     Cases Reviewed              265,185       N/A       38,190         33,677
     Case Returns                 10,469       N/A        2,269          1,888
            Changed to Denials     5,267       N/A         281            242
                                      26
        Changed to Allowances       0          N/A         946            753
                    *The FY 2007 PER figures has not been made available at this time.
     Source: Information retrieved from (a) FY 2006 and FY 2007 OQP, Federal QAR, Initial Disability
     Determinations, Net Accuracy: National and Regional Rates (b) FY 2006 Annual Report of Social
     Security Pre-effectuation Reviews of Favorable Disability Insurance Determinations

When we asked current and former employees about the DQB process, 60 (24 percent)
current employees and 36 (27 percent) former employees stated the DQB process
influences how they adjudicate disability claims. Nine current (6 percent) and
13 (12 percent) former examiners stated the DQB oversight made them more careful in
applying the disability rules and regulations.

As part of the PER sample selection process, DQB attempts to select those favorable
determinations most likely to be incorrect. 27 Although not all DDS employees
interviewed were aware of the differences between the PER and QAR sample selection
criteria, they believed more focus was placed on reviewing allowances, as well as
specific types of disability claims. For example, one DDS examiner interviewed
mentioned there is an “. . . emphasis on selecting allowances.” Another current DDS
examiner mentioned “. . . it [DQB case selection] is suppose[d] to be randomly selected,
but Medical Vocational cases over age 50 seem to get picked.” Because allowances
and specific types of cases are more likely to be reviewed by DQB, 22 (14 percent)
current and 22 (20 percent) former examiners stated they performed more work to
develop and document the claims.

When we asked examiners if they were more likely to reverse a disability decision that
was returned from DQB, 36 (26 percent) current examiners and 34 (27 percent) former
examiners said yes. Both current and former examiners did note that sometimes DQB
only requested additional documentation and not a decision reversal. Others stated if
they received a return from DQB, they just did what they were told.




26
  Per SSA POMS (DI 30005.005), the PER is required to review 50 percent of favorable Title II and
concurrent Title II/Title XVI initial and reconsideration determinations made by State agencies. Disability
claims that are denied are not reviewed under the PER review.
27
  SSA POMS DI 30005.005 Types of Federal Quality Review – To the extent feasible, the sample
selection is to be made from those determinations most likely to be incorrect.


Disability Determination Services Disability Decision (A-15-08-28114)                                     11
RESPONSES TO ADDITIONAL NEWS ALLEGATIONS

Is medical staff asked to make decisions outside their medical specialty?

Each DDS is run by the State or other responsible jurisdiction. As non-Federal
agencies, the DDS position descriptions and position titles are approved by either the
State or other responsible jurisdiction. 28 At a minimum, SSA’s POMS makes a
distinction between a medical consultant (MC) and a psychological consultant (PC). An
MC is a licensed physician (medical or osteopathic), a licensed optometrist, a licensed
podiatrist, or a qualified speech-language pathologist. 29 An MC evaluates all non-
mental or physical impairments. A PC is a psychologist who has the same
responsibilities as an MC but who can only evaluate mental impairments. 30

Based on interviews with current medical staff, 20 (32 percent) stated they were asked
to make decisions outside their medical specialty. MCs may identify themselves as
having specialties in pediatrics, internal medicine, or general surgery; however, these
areas are not recognized as specialties in SSA’s written policy. For example, one MC
responded that his medical specialty was obstetrics and gynecology, and he was asked
to make decisions outside his medical specialty. He was asked to make these
decisions by the head of the MCs and if needed, “. . . he [the head of MCs] gives us the
guidance on obtaining the right medical evidence to meet the listings.” Another MC
stated his medical specialty was pediatrics; however, he was asked to make medical
decisions associated with adult disabilities. He specifically stated “. . . part of the job
description is to make decisions, which may or may not be outside of your medical
specialty.” A third MC stated his medical specialty was internal and occupational
medicine; however, he was asked to work “. . . child cases but he doesn’t practice
pediatrics.” Although individual MCs may designate an area of specialty, the primary
role of the MC in the DDS is their medical ability to assess non-mental impairments.

SSA’s policy does not discuss whether physicians should review disability cases based
on their specialty. Based on the comments we received, SSA should consider outreach
efforts with medical consultants and/or the medical community to determine whether
disability cases should be distributed to medical staff by specialty.




28
  20 C.F.R. §§ 404.1621(b) and 416.1021(b) – The State agency will, except as may be inconsistent with
paragraph a of this section, adhere to applicable State approved personnel standards in the selection,
tenure, and compensation of any individual employed in the disability program.
29
     20 C.F.R. §§ 404.1616(a) through 404.1616(c) and 416.1016(a) through 416.1016(c).
30
     20 C.F.R. §§ 404.1616(d) through 404.1616(f) and 416.1016(d) through 416.1016(f).


Disability Determination Services Disability Decision (A-15-08-28114)                               12
Are policies and listings out of date, and do these materials make it harder to
process disability claims?

When asking former and current DDS employees about their thoughts on the
approval/denial process, 21 (8 percent) current and 10 (8 percent) former employees
stated the policies and listings make it hard to make disability decisions. One of the
most common reasons provided is that the Listings of Impairments (the Listings) is out
of date.

On April 23, 2008, the Commissioner of SSA testified before the House of
Representatives’ Committee on Ways and Means. In his statement, the Commissioner
mentioned the Listings used to make disability decisions and SSA’s efforts to update
“the Listings on a regular basis” as this will “. . . allow disability adjudicators to resolve
disability cases more accurately and efficiently.” 31 Per SSA, they are updating the
Listings. In the past 4 years, seven of the body system listings have been completely
rewritten to correspond with current medical and technological advances. In addition to
SSA’s initiative, the OIG is planning to assess SSA’s efforts to update the Listings in
FY 2009.

Why is the DDS nationwide net accuracy rate 97 percent; however, 62 percent of
cases in appeal are overturned?

SSA has established a specific administrative review process for individuals who
disagree with an initial determination decision. The administrative review process
consists of several levels (see Appendix G). In most cases, the reconsideration 32 is the
first step in the administrative review process, followed by an administrative law judge
(ALJ) hearing, and then the Appeals Council review. 33 The DDS is involved in the
reconsideration level of review, and it can overturn an initial disability determination if
deemed necessary. 34

Many current and former employees focused their responses on the role of the ALJ
hearings.

•     Ninety (35 percent) current employees and 51 (39 percent) former employees
      believed the reason for the discrepancy between the DDS decisions and ALJ
      decisions is caused by a different operating standard between examiners and ALJs.

31
  Statement of Michael J. Astrue, Commissioner for Social Security Administration Testimony,
April 30, 2008.
32
  Reconsideration is the (a) opportunity to present additional evidence, (b) a review of the evidence
considered in making the initial determination and any other evidence presented, (c) an opportunity for a
disability hearing for cases, and/or (d) a reconsidered determination based on all evidence of record.
(SSA POMS – DI 27001.001).
33
     20 C.F.R. §§ 404.929, 404.930, 404.932, 416.1429, 416.1430 and 416.1432.
34
     SSA POMS – DI 20101.010 Disability Determination Services Jurisdiction – Reconsideration Cases.


Disability Determination Services Disability Decision (A-15-08-28114)                                   13
      In support of the respondent’s opinions, the C.F.R. states that “The State agency will
      make disability determinations based only on the medical and nonmedical evidence
      in its files.” 35 As a claimant moves through the administrative review process, the
      C.F.R. states that the decision of the administrative law judge “…must be based on
      evidence offered at the hearing or otherwise included in the [claimant] record.” 36

•     Sixty-two (24 percent) current employees and 25 (19 percent) former employees
      believed too much time elapses between the initial disability determination and the
      appeals process in that the claimant’s condition could have worsened and/or new
      medical evidence could be presented.

•     Thirty-four (13 percent) current employees and 13 (10 percent) former employees
      believed the ALJs have an advantage in their ability to see claimants face-to-face.

Overall, the thoughts of current and former employees regarding the overturning of
initial disability determinations vary.




35
     20 C.F.R. §§ 404.1615(b) and 416.1015(b).
36
     20 C.F.R. §§ 404.953 and 416.1453.


Disability Determination Services Disability Decision (A-15-08-28114)                       14
                                                                    Conclusions
As seen in the January 2008 CBS Evening News report, the disability insurance
program continues to remain the focal point of all involved in the process. The factors
that drive the number of people who file for disability vary demographically,
economically and socially. Additionally, the changing health issues and medical field
enhancements help add to the complexities of administering the program. Based on
our work, we found the weight of the evidence does not support the allegation that there
is a culture to deny within the DDSs as reported by the CBS news report.




Disability Determination Services Disability Decision (A-15-08-28114)                 15
                                             Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Results of Interviews – Consolidated Employee Responses
APPENDIX D – Results of Interviews – Claims Examiner Responses
APPENDIX E – Results of Interviews – Medical Staff Responses
APPENDIX F – Results of Interviews – Management Responses
APPENDIX G – The Administrative Review Process




Disability Determination Services Disability Decision (A-15-08-28114)
                                                                        Appendix A

Acronyms
    ALJ                 Administrative Law Judge

    C.F.R.              Code of Federal Regulations

    DDS                 Disability Determination Services

    DQB                 Disability Quality Branch

    FY                  Fiscal Year

    MC                  Medical Consultant

    OIG                 Office of the Inspector General

    PAR                 Performance and Accountability Report

    PC                  Psychological Consultant

    PER                 Pre-effectuation Review

    POMS                Program Operations Manual System

    QAR                 Quality Assurance Review

    SSA                 Social Security Administration

    U.S.C.              United States Code




Disability Determination Services Disability Decision (A-15-08-28114)
                                                                          Appendix B

Scope and Methodology
Scope

To accomplish our objective, we established two research methodologies to address
two populations: current and former disability determination services (DDS) employees.
In addition to the two research methodologies, we developed and used a standard
questionnaire for all interviews. We also reviewed applicable Federal laws and
regulations and Social Security Administration (SSA) policies and procedures relating to
disability determinations.

Methodology 1 – Current Employees
• Performed site visits to 31 DDSs and interviewed employees.
•   The locations were selected based on the following criteria: (1) the DDSs were
    within driving distance from the Office of Audit Headquarters and field office
    locations, (2) a current DDS Administrative Cost Review by our office was ongoing
    or scheduled to start within the audit time frame, or (3) a site visit by our office was
    scheduled to a hearing office in close proximity to the DDS.
•   At each DDS, we interviewed eight current employees with more than 1 year work
    experience including five DDS examiners, two medical staff, and one manager.
•   The individuals were selected by the auditors performing each site visit upon arrival.
•   Of the 31 DDS site visits, additional time was available to complete an additional
    1 medical staff and 6 manager interviews. No additional time was allowed for more
    examiner interviews. A total of 255 interviews were completed.
•   Information was gathered and analyzed.

Methodology 2 – Former Employees
• Requested a list of separated employees from each of the 52 DDSs that included
  the names and contact information for those that retired, left, transferred to another
  component, or were terminated from the DDSs.
•   We randomly selected a minimum of two ex-employees from each DDS. For each
    DDS with more than two separated employees, we reviewed 10 percent of the total
    number of ex-employees. Accordingly, for those DDSs with 20 or fewer ex-
    employees, we randomly selected 2 employees for review. For those DDSs with
    21 or more ex-employees, we conducted systematic sampling (with a randomly
    selected start number).
•   We contacted individuals by telephone and conducted interviews.




Disability Determination Services Disability Decision (A-15-08-28114)                     B-1
•   Based on the information received from the DDSs, we attempted to conduct
    138 interviews with former employees and successfully completed 132 interviews.
•   Data were consolidated and analyzed.

All fieldwork was conducted from February to April 2008 in Baltimore, Maryland, and
31 States. The principal entities audited were the 50 State DDSs including those in
Puerto Rico and the District of Columbia.

We conducted this review in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




Disability Determination Services Disability Decision (A-15-08-28114)                 B-2
                                                                        Appendix C

Results of Interviews – Consolidated Employee
Responses
Attached are the consolidated results of all current and former disability determination
services (DDS) employees interviewed. Relevant questions were asked of current and
former employees based on their job responsibilities. Each question listed will identify
which employees were asked the specific question. The results are summarized based
on current and former employee responses. The total number of current employees
interviewed (that is, examiners, medical staff, and management) was 255. The total
number of former employees interviewed was 132.




Disability Determination Services Disability Decision (A-15-08-28114)                C-1
                                           CONSOLIDATED RESPONSES

                                                                Current                     Former
Total # of DDS interviews conducted with
                                                                  255                        132
examiners, medical staff, and management
ALL QUESTIONS                                            Yes      No          N/A    Yes      No           N/A

Does your job include approval/denial of claims?
                                                         84%      15%         < 1%   100%     0%           0%
(Examiners and Medical Staff Only)


Provided written guidance on claims to approve/deny?
                                                         3%       97%         0%     2%      98%           0%
(Examiners and Medical Staff Only)

Do you provide written guidance to staff on
                                                         8%       92%         0%     0%      100%          0%
approving/denying claims? (Management Only)

Did the DDS set goals for the number, percentage, or
types of claims to approve or deny? (Management          0%      100%         0%     0%      100%          0%
Only)

Told verbally how many claims to approve/deny?
                                                         4%       96%         0%     5%      95%           0%
(Examiners and Medical Staff Only)

Do you provide verbal guidance to staff on
                                                         5%       95%         0%     0%      100%          0%
approving/denying claims? (Management Only)

Encouraged to approve?                                   4%       96%         0%     7%      93%           0%

Encouraged to deny?                                      0%      100%         0%     2%      98%           0%

Does Region set goals for approvals/denials?
                                                         0%      100%         0%     0%      100%          0%
(Management Only)

Does DQB influence how you process claims?               24%      76%         < 1%   27%     70%           3%

More likely to reverse returns from DQB? (Examiners
                                                         23%      77%         0%     31%     67%           3%
Only)

Staff ratings affected by approvals/denials?
                                                         0%      100%         0%     0%      100%          0%
(Management Only)

Performance rating influenced by approval/denial rate?
                                                         < 1%     99%         1%     2%      97%           1%
(Examiner and Medical Staff Only)

Asked to make decisions outside medical specialty?
                                                         32%      68%         0%     67%     33%           0%
(Medical Staff Only)


Statistics maintained on approval/denial rates?          30%      70%         0%     45%     48%           7%




      Disability Determination Services Disability Decision (A-15-08-28114)                          C-2
Thoughts on approvals/denials?                                 Current         Former

(a) It is tough to process disability claims. There is
                                                                  4%            11%
pressure to produce.

(b) I believe approvals are easier to process.                    2%            2%

(c) I believe denials are easier to process.                      0%            2%

(d) I believe the process is guided by the evidence.             23%            15%

(e) I believe the policies and listings make it hard to
process disability claims because they are out of                 8%            8%
date.

(f) I believe there is a culture to allow.                       10%            2%

(g) I believe there is a culture to deny.                        < 1%           0%

(h) Respondents provided other general comments.                 36%            44%

(i) Respondent did not provide any comments.                     16%            17%

Thoughts on DDS disability decisions being
                                                               Current         Former
overturned in appeal?

(a) I believe ALJs operate by a different set of
                                                                 35%            39%
standards or a different process.

(b) I believe ALJs have an advantage because they
                                                                 13%            10%
are able to see the claimants.

(c) I believe a claimant having an attorney as an
                                                                  4%            2%
advocate during the appeals process is beneficial.

(d) I believe too much time passes and the claimant's
condition worsens or new medical evidence is                     24%            19%
presented.

(e) I believe the processing time constraints placed
on the examiner does not allow for full development               1%            7%
of the case.

(f) Other comment.                                               20%            22%
(g) No comment.                                                   2%             2%




       Disability Determination Services Disability Decision (A-15-08-28114)            C-3
                                                                        Appendix D

Results of Interviews – Claims Examiner
Responses
Attached are the consolidated results of all current and former disability determination
services (DDS) examiners interviewed. The results are summarized based on current
and former employee responses. The total number of current DDS examiners
interviewed was 155. The total number of former DDS examiners interviewed was 111.




Disability Determination Services Disability Decision (A-15-08-28114)                D-1
                                               DDS EXAMINER RESPONSES
                                                               Current                 Former

Total # of DDS Examiners Interviewed                            155                     111
DDS Examiner Questions                                  Yes       No     N/A    Yes     No        N/A

Does your job include approval/denial of claims?        100%     0%      0%     100%    0%        0%

Provided written guidance on claims to
                                                         3%      97%     0%     2%      98%       0%
approve/deny?

Told verbally how many claims to approve/deny?           4%      96%     0%     5%      95%       0%

Encouraged to approve?                                   4%      96%     0%     7%      93%       0%

Encouraged to deny?                                      0%     100%     0%     3%      97%       0%
Does Disability Quality Branch (DQB) influence
                                                        23%      77%     0%     31%     67%       3%
how you process claims?

More likely to reverse returns from DQB?                26%      74%     < 1%   28%     71%       1%

Performance rating influenced by approval/denial
                                                         1%      99%     0%     2%      97%       1%
rate?

Statistics maintained on approval/denial rates?         34%      66%     0%     48%     45%       7%

Thoughts on approvals/denials?                                 Current                 Former

(a) It is tough to process disability claims. There
                                                                 7%                     13%
is pressure to produce.

(b) I believe approvals are easier to process.                   1%                     1%

(c) I believe denials are easier to process.                     0%                     2%

(d) I believe the process is guided by the
                                                                28%                     13%
evidence.

(e) I believe the policies and listings make it hard
to process disability claims because they are out                7%                     8%
of date.

(f) I believe there is a culture to allow.                      36%                     45%

(g) I believe there is a culture to deny.                        5%                     0%

(h) Respondents provided other general
                                                                 1%                     0%
comments.

(i) Respondent did not provide any comments.                    14%                     19%




     Disability Determination Services Disability Decision (A-15-08-28114)                      D-2
Thoughts on DDS disability decisions being
                                                            Current          Former
overturned in appeal?
(a) I believe Administrative Law Judges (ALJ)
operate by a different set of standards or a                 34%              38%
different process.
(b) I believe ALJs have an advantage because
                                                             14%              11%
they are able to see the claimants.
(c) I believe a claimant having an attorney as an
                                                              3%              1%
advocate during the appeals process is beneficial.
(d) I believe too much time passes and the
claimant's condition worsens or new medical                  24%              16%
evidence is presented.
(e) I believe the processing time constraints
placed on the examiner does not allow for full               23%              24%
development of the case.
(f) Other comment.                                            1%              2%
(g) No comment.                                               2%              8%




     Disability Determination Services Disability Decision (A-15-08-28114)            D-3
                                                                        Appendix E

Results of Interviews – Medical Staff
Responses
Attached are the consolidated results of all current and former disability determination
services (DDS) medical staff interviewed. The results are summarized based on current
and former DDS medical staff responses. The total number of current DDS medical
staff interviewed was 63. The total number of former DDS medical staff interviewed
was 3.




Disability Determination Services Disability Decision (A-15-08-28114)                E-1
                                    DDS MEDICAL STAFF RESPONSES
                                                     Current                       Former
Total # of DDS Medical Staff Interviewed                63                           3
DDS Medical Staff Questions                       Yes      No         N/A   Yes      No      N/A
Does your job include approval/denial of
                                                  46%     52%         2%    100%     0%      0%
claims?

Provided written guidance on claims to
                                                  3%      97%         0%    0%      100%     0%
approve/deny?

Told verbally how many claims to
                                                  5%      95%         0%    0%      100%     0%
approve/deny?

Encouraged to approve?                            5%      95%         0%    0%      100%     0%
Encouraged to deny?                               0%      100%        0%    0%      100%     0%
Does Disability Quality Branch influence how
                                                  22%     78%         0%    0%      100%     0%
you process claims?
Performance rating influenced by
                                                  0%      97%         3%    0%      100%     0%
approval/denial rate?

Statistics maintained on approval/denial
                                                  21%     79%         0%    67%      0%      33%
rates?
Asked to make decisions outside medical
                                                  32%     68%         0%    67%      33%     0%
specialty?

Thoughts on approvals/denials?                           Current                   Former

(a) It is tough to process disability claims.
                                                            0%                      0%
There is pressure to produce.

(b) I believe approvals are easier to process.              0%                      0%

(c) I believe denials are easier to process.                0%                      0%

(d) I believe the process is guided by the
                                                           13%                      0%
evidence.

(e) I believe the policies and listings make it
hard to process disability claims because they             11%                      33%
are out of date.

(f) I believe there is a culture to allow.                 19%                      0%

(g) I believe there is a culture to deny.                   0%                      0%

(h) Respondents provided other general
                                                           33%                      67%
comments.

(i) Respondent did not provide any comments.               24%                      0%




    Disability Determination Services Disability Decision (A-15-08-28114)                   E-2
Thoughts on DDS disability decisions
                                                        Current            Former
being overturned in appeal?

(a) I believe Administrative Law Judges (ALJ)
operate by a different set of standards or a             37%                33%
different process.

(b) I believe ALJs have an advantage
                                                         17%                33%
because they are able to see the claimants.
(c) I believe a claimant having an attorney as
an advocate during the appeals process is                 8%                0%
beneficial.

(d) I believe too much time passes and the
claimant's condition worsens or new medical              13%                0%
evidence is presented.

(e) I believe the processing time constraints
placed on the examiner does not allow for full           19%                33%
development of the case.

(f) Other comment.                                        6%                0%
(g) No comment.                                           0%                0%




   Disability Determination Services Disability Decision (A-15-08-28114)            E-3
                                                                        Appendix F

Results of Interviews – Management
Responses
Attached are the consolidated results of all current and former disability determination
services (DDS) management interviewed. The results are summarized based on
current and former DDS management responses. The total number of current DDS
management interviewed was 37. The total number of former DDS management
interviewed was 18.




Disability Determination Services Disability Decision (A-15-08-28114)                  F-1
                                             DDS MANAGEMENT RESPONSES
                                                                Current                  Former
Total # of DDS Managers Interviewed                               37                       18
DDS Management Questions                                  Yes     No         N/A   Yes     No           N/A
Do you provide written guidance to staff on
                                                          8%      92%        0%    0%     100%          0%
approving/denying claims?

Do you provide verbal guidance to staff on
                                                          5%      95%        0%    0%     100%          0%
approving/denying claims? (Management Only)

Does Region set goals for approvals/denials?              0%     100%        0%    0%     100%          0%

Did the DDS set goals for the number, percentage, or
                                                          0%     100%        0%    0%     100%          0%
types of claims to approve or deny?

Encouraged to approve?                                    5%      95%        0%    6%     94%           0%
Encouraged to deny?                                       0%     100%        0%    0%     100%          0%
Does Disability Quality Branch influence how you
                                                          27%     70%        3%    11%    83%           6%
process claims?
Staff ratings affected by approvals/denials?              0%     100%        0%    0%     100%          0%

Statistics maintained on approval/denial rates?           35%     65%        0%    28%    72%           0%
Thoughts on approvals/denials?                                  Current                  Former

(a) It is tough to process disability claims. There is
                                                                  0%                      6%
pressure to produce.

(b) I believe approvals are easier to process.                    5%                      6%

(c) I believe denials are easier to process.                      0%                      0%

(d) I believe the process is guided by the evidence.             19%                      33%

(e) I believe the policies and listings make it hard to
process disability claims because they are out of                 8%                      0%
date.

(f) I believe there is a culture to allow.                       16%                      11%

(g) I believe there is a culture to deny.                         0%                      0%

(h) Respondents provided other general comments.                 41%                      33%

(i) Respondent did not provide any comments.                     11%                      11%




     Disability Determination Services Disability Decision (A-15-08-28114)                        F-2
Thoughts on DDS disability decisions being
                                                               Current       Former
overturned in appeal?


(a) I believe Administrative Law Judges (ALJ) operate
                                                                 41%          44%
by a different set of standards or a different process.


(b) I believe ALJs have an advantage because they
                                                                 3%           0%
are able to see the claimants.

(c) I believe a claimant having an attorney as an
                                                                 3%           6%
advocate during the appeals process is beneficial.

(d) I believe too much time passes and the claimant's
condition worsens or new medical evidence is                     46%          39%
presented.

(e) I believe the processing time constraints placed
on the examiner does not allow for full development              0%           0%
of the case.

(f) Other comment.                                               8%           6%

(g) No comment.                                                  0%           6%




     Disability Determination Services Disability Decision (A-15-08-28114)            F-3
                                                                                    Appendix G

The Administrative Review Process1
Initial Determination
     • The Social Security Administration (SSA) contracts with each State or other
         responsible jurisdiction to make disability decisions according to Federal
         regulations. 2 The disability determination services (DDS) in each State and
         territory apply Social Security regulations and policy guidance to reach an initial
         determination of whether a claimant is or is not disabled.
Reconsiderations
  • If a claimant is dissatisfied with the initial determination, the claimant may request
     review by a second review. There are 10 States—Alaska, Alabama, California
     (Los Angeles West and North Branches only), Colorado, Louisiana, Michigan,
     New Hampshire, New York, Missouri, and Pennsylvania—that are participating in
     a Disability Redesign Prototype. In these states claimants who appeal their initial
     disability decision go directly to a hearing before an administrative law judge and
     skip the reconsideration step.
      •   Reconsideration involves the review of evidence considered in making the initial
          determination, together with any other evidence SSA receives from the claimant.
          A DDS employee who was not involved in the initial determination will evaluate
          the evidence and issue a new determination.
      •   The reconsideration process is currently performed by the DDS.
Hearings
  • An individual dissatisfied with the reconsideration may request a hearing that will
      be conducted before an administrative law judge (ALJ). The claimant may
      appear in person, submit new evidence, examine the evidence used in making
      the determination or decision under review, and present and question witnesses.
      The ALJ conducts the hearing and makes an independent inquiry into all of the
      evidence on file from the initial and reconsidered determinations, evaluates new
      evidence presented by the claimant, questions witnesses presented by the
      claimant, and may receive evidence from vocational and medical experts. Once
      a full inquiry into the claimant’s case is complete, the ALJ issues a written
      decision. Under certain circumstances, the ALJ may dismiss the claimant’s
      hearing request.



1
  SSA’s administrative review process exists to review appeals made by a claimant who disagrees with
an initial determination. The steps in the process are set forth in 20 Code of Federal Regulations (C.F.R.)
§§ 404.900 et seq., 405.1 et seq. and 416.1400 et seq. The procedures in Part 405 apply only to
disability claims filed in SSA’s Boston Region on or after August 1, 2006.

2
    20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.


Disability Determination Services Disability Decision (A-15-08-28114)                                  G-1
      •   The claimant may waive the right to appear at the hearing at which time the ALJ
          will generally make a decision based on the record and any evidence the
          claimant may have submitted.
Appeals Council Review 3
   • If a claimant or other party to the claim is dissatisfied with the hearing decision or
      the dismissal of a hearing request, he/she may ask the Appeals Council to review
      the ALJ’s action. The Appeals Council may grant, deny or dismiss a request for
      review of a hearing decision or dismissal. If the Appeals Council grants the
      request for review, it will generally either issue a decision or remand the case to
      the ALJ for further action. If the Appeals Council concludes that there is no basis
      under the regulations to review the ALJ’s decision or dismissal, it will deny the
      request for review. If the Appeals Council grants the request for review and
      issues a decision, this decision becomes SSA’s final decision. If the Appeals
      Council denies the request for review, the ALJ’s decision or dismissal is SSA’s
      final decision or action.
Federal Court Review 4
   • If the claimant is dissatisfied with the action of the Appeals Council, he or she
      may file suit in Federal district court.




3
    SSA POMS – DI 12020.001 – Appeals Council Review.
4
    20 C.F.R. §§ 404.981 and 416.1481.


Disability Determination Services Disability Decision (A-15-08-28114)                    G-2
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
